rT

2311 Douglas Street A L E

Omaha, Nebraska 68102-1214 Legal Briefs

Est. 1923
1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850
No.
WILLIAM ANDERSON,
Petitioner,
v.
CITY OF MINNEAPOLIS, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address;

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court

Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 7253 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 18th day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . Le Qudraw- ,
My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant

38990
